 

No. 21-

 

Optimum Services, Inc.,

Petitioner,
v.

Debra Anne Haaland, Secretary of the Interior,

Respondent.

 

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), the undersigned certifies that under
under Rule 29.3, electronic pdf copies of Petitioner's Petition, Petition Appendix
Volumes One and Two, Certificate of Compliance, and this Certificate of Service are
being served by email to Respondent's counsel in the court of appeals, by email to
Daniel.B.Volk@usdoj.gov. Also, under Rule 29.4(a), paper copies are being served by
delivery to commercial courier for delivery within three days addressed to:

Solicitor General of the United States Debra Anne Haaland,

Department of Justice Secretary of the Interior
950 Pennsylvania Avenue NW Department of the Interior
Room 5616 1849 C Street, N.W.
Washington, DC 20530 Washington, DC 20240
(202) 514-2203 (202) 208-3100

on this 8th day of April, 2021. vp

Jams W. Copeland, Counsel for Petitioner
The Copeland Law Firm, LLC

2780 Bert Adams Road Suite 201

Atlanta, Georgia 30339

770-693-1197
jcopeland@contractdisputeslaw.com

 
